No. 19-1039
IN THE SUPREME COURT OF THE UNITED STATES
PENNEAST PIPELINE COMPANY, LLC, PETITIONER
v.
STATE OF NEW JERSEY, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE IN ORAL
ARGUMENT AS AMICUS CURIAE AND FOR DIVIDED ARGUMENT, via e-mail and
first-class mail, postage prepaid, this 31st day of March, 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 31, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

19-1039
PENNEAST PIPELINE COMPANY, LLC
NEW JERSEY, ET AL.

CHARLES OWEN BECKLEY
BECKLEY & MADDEN, LLC
212 NORTH THIRD STREET
SUITE 301
HARRISBURG, PA 17101
CBECKLEY@PA.NET
ELLEN O. BOARDMAN
O'DONOGHUE & ODONOGHUE LLP
5301 WISCONSIN AVE., NW
SUITE 800
WASHINGTON , DC 20015
EBOARDMAN@ODONOGHUELAW.COM
TERRY ROBERT BOSSERT
MARCELLUS SHALE COALITION
300 N. 2ND STREET
SUITE 1102
HARRISBURG, PA 17101
TBOSSERT@MARCELLUSCOALITION.ORG
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM

JENNIFER LYNN DANIS
MORNINGSIDE HEIGHTS LEGAL SERVICE
425 W. 116 STREET
NEW YORK, NY 10027
201-306-3382
JID228@COLUMBIA.EDU
JEREMY M. FEIGENBAUM
OFFICE OF THE NJ ATTORNEY GENERAL
25 MARKET ST.
FIRST FLOOR
TRENTON, NJ 08625-0080
609-376-2690
JEREMY.FEIGENBAUM@NJOAG.GOV
LELA M. HOLLABAUGH
BRADLEY ARANT BOULT CUMMINGS, LLP
1600 DIVISION STREET
NASHVILLE, TN 37203
LHOLLABAUGH@BRADLEY.COM
MATTHEW LITTLETON
DONAHUE, GOLDBERG, WEAVER &
LITTLETON
1008 PENNSYLVANIA AVE., SE
WASHINGTON, DC 20003
202-683-6895
MATT@DONAHUEGOLDBERG.COM
EDWARD LLOYD
MORNINGSIDE HEIGHTS LEGAL SERVICES,
INC
COLUMBIA UNIVERSITY SCHOOL OF LAW
435 WEST 116TH ST.
NEW YORK, NY 10027
973-495-3774
ELLOYD@LAW.COLUMBIA.EDU

DEANNE ELIZABETH MAYNARD
MORRISON & FOERSTER, LLP
2000 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
DMAYNARD@MOFO.COM
MICHAEL HUGH MCGINLEY
DECHERT LLP
1900 K STREET, NW
WASHINGTON, DC 20006
202-261-3378
MICHAEL.MCGINLEY@DECHERT.COM
HALA A. SANDRIDGE
BUCHANAN, INGERSOLL & ROONEY
401 EAST JACKSON STREET
SUITE 2400
TAMPA, FL 33602
HALA.SANDRIDGE@BIPC.COM
KENNETH VON SCHAUMBURG
GALLAGHER & KENNEDY, P.A.
1101 PENNSYLVANIA AVE.
6TH FLOOR
WASHINGTON, DC 20004
202-756-4392
KVONSCHAUMBRG@CLARKHILL.COM
CATHERINE EMILY STETSON
HOGAN LOVELLS US LLP
COLUMBIA SQUARE
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5491
CATE.STETSON@HOGANLOVELLS.COM

